No. 20-107

 

IN THE
Supreme Court of the United States

 

CEDAR POINT NURSERY AND FOWLER PACKING COMPANY, INC.,
Petitioners,
Vv.
VICTORIA HASSID, IN HER OFFICIAL CAPACITY AS CHAIR OF THE AGRICULTURAL LABOR
RELATIONS BOARD, ET AL.,
Respondents.

RULE 33.1(h) CERTIFICATE OF COMPLIANCE

 

As required by Supreme Court Rule 33.1(h), I certify that the Brief of
Constitutional Accountability Center as Amicus Curiae in Support of Respondents
contains 6,179 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 12, 2021.

‘Bri A

BriannéJ. Gorod
Counsel for Amicus Curiae
